W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-7556

Terrence A. McKnight

R. Johnson, et al.

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Michele Swanson

Date:

3/29/21

Digitally signed by Michele Swanson
Date: 2021.03.29 12:39:24 -07'00'

(Type or print) Name Michele Joette Swanson
Mr.

Ms.

Mrs.

Miss

Firm

State of California, Department of Justice, Office of the Attorney General

Address

455 Golden Gate Avenue, Suite 11000

City & State

San Francisco, CA

Phone

(415) 510-3866

Zip 94102-7004
Email

Michele.Swanson@doj.ca.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Gail Ivens, Counsel for Petitioner
P.O. Box 664
King City, CA 93930

